                                                                 NATIONAL SCIENCE FOUNDATION
                                                                  OFFICE OF INSPECTOR GENERAL
                                                                    OFFICE OF INVESTIGATIONS

                                                         CLOSEOUT MEMORANDUM

11    Case Number: A-04110066
                                                                                         11             Page 1 of 1



           We received an allegation that the subject, a co-PI' on an NSF proposal^ requested 1.OO months
           of summer salary for each of 3 consecutive years which he should not have done because he was
           employed on a 12-month contract by a state ~ u s e u m ~ The
                                                                      . subject's Biosketch in the NSF
           proposal listed two employers - the Museum and the institution fiom which the proposal was
           received, a College. However, there was no explanation in the proposal concerning the request
           for the summer salary related to these two separate employment situations. Because we could


I
           not determine the subject's employment status with either of these employers was, we contacted
           him.

           The subject informed us that he was a 12-month calendar employee at the Museum. Further, he
           explained that he worked part time at the College, an arrangement made through the state. The
           NSF policy states that for PIS that receive compensation based on a 12-month calendar year,
           "salary is defined in calendar months. For such persons, the concept of summer salary is
           normally inappropriate under an NSF grant.'d The PI did nothing wrong in requesting the
           summer salary. When NSF proposals, such as this one, are considered for funding, program
           officers typically evaluate the appropriateness of requests for summer salary prior to
           recommending the proposals for fimding.




           'Dr.                 the subject, is                         -                                                I
           as well as a facity member at '           Y

            NSF proposal                  ,entitled 'q
                                                         "   was submitted by           4 PI, and the subject, both ai the
           Department of L
           3

               NSF Manual #10 Chapter VI,E(l)(b)(3).


11'
  NSF OIG Form 2 (11/02)
